<html>
<title> - [H.A.S.C.] No. 115-62] Amphibious Warfare Readiness and Training: Interoperability, Shortfalls, and The Way Ahead</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


.                                     

                         [H.A.S.C. No. 115-62]
                         
                         

                      AMPHIBIOUS WARFARE READINESS

                    AND TRAINING: INTEROPERABILITY,

                     SHORTFALLS, AND THE WAY AHEAD

                               __________

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON READINESS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 1, 2017

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-245                       WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a> 


                                     
  


                       SUBCOMMITTEE ON READINESS

                  JOE WILSON, South Carolina, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
STEVE RUSSELL, Oklahoma              TULSI GABBARD, Hawaii
MIKE ROGERS, Alabama                 CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             A. DONALD McEACHIN, Virginia
ELISE M. STEFANIK, New York          SALUD O. CARBAJAL, California
MARTHA McSALLY, Arizona, Vice Chair  ANTHONY G. BROWN, Maryland
SCOTT DesJARLAIS, Tennessee          STEPHANIE N. MURPHY, Florida
TRENT KELLY, Mississippi             RO KHANNA, California
MIKE GALLAGHER, Wisconsin
                 Drew Warren, Professional Staff Member
                Brian Garrett, Professional Staff Member
                         Danielle Steitz, Clerk
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Readiness......................................     1

                               WITNESSES

Beaudreault, LtGen Brian D., USMC, Deputy Commandant for Plans, 
  Policies, and Operations.......................................     3
Lewis, VADM Andrew L., USN, Deputy Chief of Naval Operations for 
  Operations, Plans and Strategy (N3/N5).........................     4
Russell, Cary B., Director, Defense Capabilities and Management, 
  U.S. Government Accountability Office..........................     6

                                APPENDIX

Prepared Statements:

    Beaudreault, LtGen Brian D...................................    26
    Lewis, VADM Andrew L.........................................    37
    Russell, Cary B..............................................    44
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
               AMPHIBIOUS WARFARE READINESS AND TRAINING:

            INTEROPERABILITY, SHORTFALLS, AND THE WAY AHEAD

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Friday, December 1, 2017.
    The subcommittee met, pursuant to call, at 8:01 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
      SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wilson. Good morning. The subcommittee will come to 
order. I welcome you today to this hearing of the House Armed 
Services Committee Readiness Subcommittee on ``Amphibious 
Warfare Readiness and Training.''
    Today the subcommittee will hear from the Navy and Marine 
Corps regarding the status of amphibious training and 
readiness, specifically the challenges of amphibious ship 
availability and Navy and Marine Corps interoperability. We are 
also pleased to have the Government Accountability Office 
present to comment on their recent study of the amphibious 
operations training released in September 2017.
    I ask the witnesses to do their best to describe where 
shortfalls exist and what can be done to improve the less than 
optimal state we are in, specifically how better and more 
consistent funding could help. We have held a number of 
readiness hearings and briefings on aviation, surface 
combatants, DOD [Department of Defense] infrastructure, and 
other topics. Every session points to the same grim conclusion: 
our services are indeed in a readiness crisis. Marine 
expeditionary units aboard U.S. Navy amphibious vessels are an 
important element of our forward deployed strategic deterrent. 
To be effective, the Navy-Marine Corps team must train together 
regularly, certainly more than they do today. Because we have 
too few ships, necessary training is not possible.
    President Ronald Reagan frequently used the phrase 
correctly, ``Peace through strength.'' I agree with President 
Reagan and believe we have a higher level of defense funding--
must be achieved to achieve that goal. I look forward to 
hearing from our witnesses today on how this capability can be 
improved.
    Before I introduce the witnesses, I am grateful to 
recognize Ranking Member Madeleine Bordallo, the distinguished 
gentlelady from Guam, for opening comments she would like to 
make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today. I do look 
forward to discussing the challenges that are impeding 
amphibious training and the mitigations and long-term solutions 
to build and sustain readiness in the Marine Corps and the 
Navy.
    Amphibious operations are complex, and they are difficult 
to say the least. There is a tremendous amount of planning and 
preparations required to ensure the ships, sailors, and Marines 
and equipment are properly coordinated to ensure the success of 
a training event or, in the event of a contingency operation, 
an actual amphibious landing.
    The GAO [Government Accountability Office] report clearly 
indicates there is currently a lack of overall strategy to 
allocating limited resources that are needed for amphibious 
training. The current operations tempo, as well as the limited 
number of ships, compound this challenge. It is clear that 
better coordination is required by the Navy and the Marine 
Corps to ensure this critical warfighting and skill is restored 
to a readiness level and is required to meet our operational 
planning needs.
    I am encouraged to see that both the Navy and the Marines 
have concurred with all three recommendations made by GAO, and 
I intend to monitor the progress as both services work to 
restore this amphibious operation readiness. This committee is 
keenly aware of the continuing impacts of sequestration and 
unpredictable funding on readiness in every aspect of the 
services.
    I encourage the witnesses to share specific examples of how 
unpredictable funding has impacted their ability to conduct 
amphibious operations training. And I look forward to the 
training, and thank you again, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you, Ranking Member Bordallo.
    In connection with today's hearing we welcome members of 
the full committee who are not members of the Readiness 
Subcommittee who are or will be willing to attend. I ask 
unanimous consent that these committee members be permitted to 
participate in this briefing with the understanding that all 
sitting subcommittee members will be recognized for questions 
prior to those not assigned to the subcommittee. Without 
objection. So ordered.
    I am pleased to recognize our witnesses today. I want to 
thank them for taking the time to be with us and their service 
to our Nation. We have Lieutenant General Brian Beaudreault, 
Deputy Commandant for Plans, Policies, and Operations, U.S. 
Marine Corps; Vice Admiral Andrew L. ``Woody'' Lewis, the 
Deputy Chief of Naval Operations for Operations, Plans, and 
Strategy, U.S. Navy; and we have Mr. Cary Russell, Director of 
Defense Capabilities and Management of the U.S. Government 
Accountability Office.
    We will now ask each panel member to make brief opening 
remarks before we proceed to member questions under the very 
strict 5-minute rule of Mr. Warren.
    We will begin with General Beaudreault.

     STATEMENT OF LTGEN BRIAN D. BEAUDREAULT, USMC, DEPUTY 
         COMMANDANT FOR PLANS, POLICIES, AND OPERATIONS

    General Beaudreault. Chairman Wilson, Ranking Member 
Bordallo, and distinguished members of the subcommittee, good 
morning, and thank you for the opportunity to testify before 
this subcommittee.
    Today Marines and sailors are at sea operating as 
amphibious ready groups [ARGs], Marine expeditionary units 
[MEUs]. We have the America ARG and the 15th MEU out in the 
Central Command region with some of its personnel about to 
embark on allied ships. We have the Bonhomme Richard and the 
31st MEU out in the Pacific. The Iwo Jima ARG is off the east 
coast of the United States with the 26th MEU embarked preparing 
to deploy, and we have Black Sea rotational Marines aboard DDGs 
[guided-missile destroyers] getting ready to exercise in the 
European theater. So your expeditionary forces in readiness are 
postured forward and are accomplishing our national security 
objectives.
    The Marine Corps has reviewed the GAO report on Navy and 
Marine Corps training, and we agree with the study, its 
findings, and its recommendations.
    Today's testimony provides the Navy and Marine Corps the 
opportunity to inform the Readiness Subcommittee on the 
challenges associated with amphibious operations training, 
discuss our shortfalls, and describe our projected way ahead.
    The current inventory of 32 amphibious warships is short of 
our need to satisfy operational requirements, which does 
negatively impact the naval force's ability to generate 
readiness and negatively affects availability for training with 
larger scale formations.
    The amphibious force structure is projected to grow to a 
total of 34 ships starting in fiscal year 2021. And the Marine 
Corps supports the 38-ship requirement and the requisite 
funding to develop readiness while concurrently fulfilling 
validated joint requirements, accomplishing necessary fleet 
maintenance, and maintaining capacity to respond to potential 
contingencies. And as the amphibious ship inventory builds 
toward 38 ships in fiscal year 2033, the Navy and Marine Corps 
team will continue to explore innovative ways to employ 
alternative platforms.
    So on behalf of our Marines and sailors, civilians and 
their families, we thank the Congress and this committee for 
the opportunity to discuss the key challenges your Navy and 
Marine Corps face, and we thank you for your support.
    The most important actions that Congress can take now is to 
immediately repeal the caps on defense spending in the Budget 
Control Act, and provide a defense appropriation that ensures 
sufficient, consistent, and predictable funding to train, man, 
and equip your Navy and Marine Corps. And with your help we 
will overcome these constraints and enable your Navy and Marine 
Corps team to meet the challenges of the 21st century.
    Mr. Chairman, I have submitted a written statement for the 
record, and I would ask that to be accepted, and I look forward 
to answering your questions. Thank you.
    [The prepared statement of General Beaudreault can be found 
in the Appendix on page 26.]
    Mr. Wilson. General, thank you very much, and the persons 
who are here on the subcommittee certainly endorse your 
statement in regard to the Budget Control Act sequestration. I 
would like to now proceed to Admiral Lewis.

 STATEMENT OF VADM ANDREW L. LEWIS, USN, DEPUTY CHIEF OF NAVAL 
     OPERATIONS FOR OPERATIONS, PLANS AND STRATEGY (N3/N5)

    Admiral Lewis. Chairman Wilson, Ranking Member Bordallo, 
and distinguished members of the subcommittee, I appreciate the 
opportunity to testify before you today alongside General 
Beaudreault.
    The team before you is inextricably linked. In our past, I 
have commanded Marines and he has commanded sailors. We train 
together, deploy together, and fight together. Our bond has 
been strengthened over the centuries of our great services, and 
today we look forward to testifying how we will continue that 
bond in the future. I request my written statement be submitted 
for the record, and I will keep these remarks brief.
    Right now your Navy-Marine Corps team is forward deployed 
and standing the watch. Sailors and Marines are at sea aboard 
the America Amphibious Readiness Group with the 15th MEU in 
Central Command, USS Bonhomme Richard Amphibious Readiness 
Group with the 31st MEU in the Pacific, and the Iwo Jima 
Amphibious Readiness Group with the 26th MEU in the Atlantic 
preparing to deploy.
    We are at the tip of the spear and working every day to 
sharpen it. We reviewed the GAO report on Navy and Marine Corps 
amphibious operations and training and agree with the study, 
its findings, and its recommendations. We appreciate the 
opportunity to inform the Readiness Subcommittee of the 
challenges associated with Navy and Marine Corps amphibious 
operations training and integration, discuss our shortfalls, 
and lay out a projected way ahead.
    The GAO report finds the Navy shortage of amphibious ships 
to be detrimental to our ability to train. The 32 amphibious 
ships currently in the fleet are stressed to meet both 
combatant commander operational requirements, ongoing 
contingency operations, and disaster relief, which impacts the 
ability of the Navy and Marine Corps to improve readiness and 
training as an integrated force.
    Continuing resolutions and caps imposed by the Budget 
Control Act have impacted our ability to plan and implement 
training, ship maintenance, and modernization. While we have 
prioritized maintenance and readiness dollars, the positive 
effects of prioritized funding will not remove these deficits 
in the near term. Restoring the readiness of the fleet requires 
predictable, stable, and adequate funding over several years to 
ensure that we can conduct the required maintenance on our 
ships. This stability would help the Navy to restore stocks of 
necessary parts, get more ships to sea on time, and better 
prepare sailors and Marines for deployment.
    Although a continuing resolution may be better than no 
funding at all, the costs associated with not being able to 
start new work cannot be overstated. Delays in shipyard 
maintenance periods cause ships to either have their training 
pipelines compressed or maintenance deferred. Deferred 
maintenance creates an increase in costs due to a corresponding 
increase in machinery to repair.
    At the same time the value of skilled artisans is amplified 
when work is stopped due to the lack of a labor force 
possessing the qualifications to complete the repairs. Work 
stoppages created by continuing resolutions force artisans to 
seek alternate, more stable employment. Skilled shipyard 
workers require 2 to 4 years of training to reach journeyman 
certification and 5 to 10 years to reach master. Shipyards and 
skilled workers require stable, predictable funding to maintain 
their skilled workforce and invest in these critical training 
programs in order to maintain and grow the shipyard capacity we 
need.
    Maintaining the fleet is not enough to ensure readiness 
when adversary capabilities continue to improve. We need a more 
lethal and effective force, which can only be realized through 
modernization and new technologies. The same stable, 
predictable, and adequate funding required for maintenance is 
critical to the new programs and additional capacity we need to 
get better. We are working together to overcome these 
challenges at the direction of the Chief of Naval Operations 
and Commandant of the Marine Corps.
    Through the Naval Board, the services incorporated 
processes to posture for increased training and integration. 
The commander of the United States Fleet Forces Command and 
commander of the United States Marine Forces Command 
established a co-led maritime working group to provide an 
enduring interservice collaborative process that integrates 
capabilities, force development, experimentation, and emerging 
requirements with exercise planning, scheduling, and 
resourcing.
    The commander of the U.S. Pacific Fleet and commander of 
the U.S. Marine Forces Pacific have similarly developed the 
Pacific Naval Integration Working Group to represent the 
Pacific issues. These four commands meet together quarterly to 
include meeting at this time in Hawaii.
    On behalf of all Marines, sailors, civilians, and their 
families, we thank the Congress and this committee for your 
support and this opportunity to discuss the key challenges your 
Navy and Marine Corps face. The President's fiscal year 2018 
[budget] request and the recently passed National Defense 
Authorization Act look toward fleet wholeness and funding to 
man, train, and equip and organize the Navy and Marine Corps. 
These funds will only work if they are approved in a 
consistent, predictable, and timely manner. With your help, we 
will overcome these constraints and reshape your Navy and 
Marine Corps to meet the challenges of the 21st century. I look 
forward to your questions.
    [The prepared statement of Admiral Lewis can be found in 
the Appendix on page 37.]
    Mr. Wilson. Thank you very much, Admiral. We now proceed to 
Mr. Cary Russell.

 STATEMENT OF CARY B. RUSSELL, DIRECTOR, DEFENSE CAPABILITIES 
     AND MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Russell. Good morning Chairman Wilson, Ranking Member 
Bordallo, and members of the subcommittee. Thank you for having 
me here today to talk about GAO's recent review of Navy and 
Marine Corps training for amphibious operations.
    The Navy and Marine Corps together maintain forces capable 
of conducting amphibious operations; that is, military 
operations launched from the sea using naval vessels to project 
a Marine Corps landing force ashore. As you know, the United 
States today faces a complex national security environment with 
threats ranging from large-scale traditional state actors to 
destabilizing nonstate actors.
    Accordingly, the Navy and Marine Corps must have fully 
trained and ready forces to address these threats in the 
maritime domain. However, each of the military services today 
are generally smaller and less combat ready than they have been 
in many years. For example, over the past two decades the 
number of Navy amphibious ships has decreased by 50 percent, 
from 62 ships in 1990 to the 32 that we have today.
    For my statement I am going to focus on three areas that we 
examine in our latest report. First, the Navy and Marine Corps 
ability to complete training for amphibious operations and 
factors that limited that training. Second, steps taken by the 
Navy and Marine Corps to mitigate training shortfalls. And 
third, efforts to improve overall integration between the Navy 
and Marine Corps for amphibious operations training referred to 
as ``naval integration.''
    With respect to the first area on completing amphibious 
training, we found that the Navy's fleets of amphibious ships 
and associated Marine Corps combat units that were just about 
to deploy as part of those Marine expeditionary units had 
generally completed the needed training for amphibious 
operations. However, for that majority of forces not nearing a 
deployment, such as those conducting home station training to 
build and maintain core competencies, they fell considerably 
short of being able to complete amphibious training 
requirements. This was especially noticeable in Marine Corps 
infantry battalions and V-22 Osprey tiltrotor squadrons.
    These deficits can create a potential gap in the Marine 
Corps ready bench of units. If called on these units could be 
left scrambling to obtain last-minute training, risking their 
ability to be fully ready once deployed and underway.
    The most prevalent factor we found that hampered training 
completion was a lack of available amphibious ships on which to 
train. For example, data we collected or obtained from the 1st 
Marine Expeditionary Force, which operates out of the Pacific, 
showed that the Navy was unable to fulfill 93 percent of its 
request for Navy ship support for training in fiscal year 2016.
    Other significant factors we identified across the Marine 
Corps that hampered training included limited access to to 
range space and maintenance delays for amphibious ships.
    With respect to actions taken by the Navy and Marine Corps 
to mitigate training challenges, we identified some important 
steps that the services have taken. For example, the Navy in 
working with the Marine Corps has assessed its needs for 
amphibious ships to support current deployments while also 
providing for adequate training and now plans to increase the 
number of ships in the amphibious fleet from 31 to 38.
    Also, the Marine Corps is currently evaluating its 
amphibious training requirements and the number of forces that 
must be trained and ready at any given time. However, despite 
these actions, we found that the service's current approach for 
amphibious operations training does not fully incorporate 
strategic training in leading risk management practices, such 
as prioritizing all available training resources.
    For example, the Marine Corps relies more on an ad hoc 
process to identify units that are available for home station 
training when an amphibious ship becomes available, rather than 
a process that would deliberately align the next highest 
priority units with those ships and other resources.
    Additionally, the Navy and Marine Corps have not 
systematically evaluated a full range of alternatives to 
achieve training priorities in light of the limited 
availability of amphibious ships.
    Further, while the Marine Corps has endeavored to 
incorporate simulators and other virtual devices into its 
training activities, we identified gaps in its processes to 
effectively develop and use them; namely, weaknesses on the 
front-end planning and postfielding evaluation of device 
effectiveness.
    And finally, with respect to naval integration for training 
activities, the Navy and Marine Corps have taken steps to 
improve coordination between the two services but have not 
fully incorporated leading collaboration practices that would 
help drive these efforts. For example, the Navy and Marine 
Corps lack defined common outcomes that would help them create 
a more integrated approach to managing and executing their 
training programs.
    This completes my statement, and I would be pleased to 
respond to any questions you may have.
    [The prepared statement of Mr. Russell can be found in the 
Appendix on page 44.]
    Mr. Wilson. Thank you very much, Mr. Russell, and thank all 
of you for your succinctness, and we will begin now on the very 
concise 5-minute rule.
    Even before we begin, yesterday, and I was really pleased, 
and, Admiral, you brought it up again, the consequence of 
continuing resolution that we have and we are facing that now. 
And something that would be very helpful as I mentioned, and I 
hope that both of you could provide succinct examples of what 
the additional costs are due to a continuing resolution in real 
world language very brief so that Congresswoman Bordallo and I 
can receive that and we can provide it to the rest of the 
subcommittee members so that we could actually use that to 
explain to our constituents what the consequence of a 
continuing resolution is.
    And it would just be very helpful because it just doesn't 
come across as it should. And we want to make it where our 
constituents understand and also even our colleagues, it would 
be good for them to understand, too.
    Admiral Lewis, you clearly articulated in your written 
statement and in your opening remarks why it is so important to 
grow the number of amphibious ships currently in the Navy's 
inventory. Can you please comment on why you would need 
additional ships, particularly being challenged when the Navy 
has plans to take commission LSDs [dock landing ships] offline 
for up to 4 years at a time? Currently LSD-46, the USS Tortuga, 
does not have planned availability fiscal years 2016 to 2019. 
Can you please explain this further?
    Admiral Lewis. Yes, sir. In regards to taking the ships 
offline for maintenance, so these ships are old, and they are 
ships that, you know, so it is akin to keeping a car that you 
have had for a long time that the maintenance costs become 
further and further. And we have--over time we have deferred 
these maintenance because of continuing resolutions.
    As an example of that deferred maintenance, the USS Gunston 
Hall went into maintenance deferred an entire 3-year deferral 
increased the costs from $44 million to $111 million. And the 
time in maintenance went from 270 days to 696 days. You know, 
if you compare that to the cost to your personal vehicle that 
is, you know, a couple months' pay of all of us, regardless of 
what kind of car it is. So that is a big impact to those funds, 
those operating funds. That is how we fund those maintenance.
    In the case of ships that we have taken offline, as you 
state, we have really no other choice to do that because we 
don't have adequate funding under continuing resolutions to do 
that maintenance, you know, right in quick order. If we had 
more funding we could, you know, tighten those timelines on 
that maintenance on those older ships. However, we have done 
the best that we can do with the funding that we have and 
spread that maintenance out over time.
    Mr. Wilson. I want to thank you for raising that it is not 
just cost but delay and extension of time, and so if you all 
could include that, not just costs, but the consequence of 
offline and delay.
    And General Beaudreault, what specific elements do the 
Marine Corps atrophy and suffer the most from the lack of 
amphibious ships and training opportunities?
    General Beaudreault. Mr. Chairman, it is our ability to 
train at higher echelons above the Marine expeditionary unit 
and the amphibious ready group unit. Our forcible entry 
capability, core competency of the Marine Corps and Navy team 
here, is at risk above the MEU level. Simply we can do some 
training through--of the command elements through virtual 
systems, but at some point you have to put the ships to sea and 
go through a mission rehearsal.
    And the ability to generate the number of ships required to 
train at a Marine expeditionary brigade [MEB] level just simply 
isn't there. So we take it in bite-size chunks, and we try to 
train elements of that MEB the best we can, but it is very, 
very difficult lacking the capacity to put the entire MAGTF 
[Marine air-ground task force] and Navy team together at sea. 
That is the greatest challenge we have quite honestly right 
now.
    Mr. Wilson. Well, and I appreciate you pointing out that 
virtual can be very helpful, but it is the actual practicality 
of the operation itself. At this time we proceed to 
Congresswoman Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Mr. 
Russell, you identified concerns with the way the Navy and the 
Marine Corps were utilizing available training resources to 
conduct amphibious training. Can you please provide us with 
some specific examples where GAO felt the current process did 
not effectively prioritize training?
    Mr. Russell. Yes, ma'am. Well, I will start out by saying 
with respect to the units that are just about to deploy for the 
Marine expeditionary units, they were able to train, and they 
were able to use those resources.
    The issues we had were with that ready bench, that group 
that was not ready to deploy, and what we found is that more 
often the assignment of Navy ships to Marine Corps units was 
done more ad hoc based on the availability of the units for the 
Marine Corps units to match up to the ship based on the 
availability of the ship, rather than having a system of 
prioritization to look at those Marine Corps units that were 
most likely to need training earlier.
    So, for example, some of those units that might be tagged 
to go as part of the special Marine task forces, the SPMAGTF 
[special purpose Marine air-ground task force], for example, or 
other things that might have a priority over others. That 
distinction was not made in the process, rather, it was more of 
a matching of availability.
    Ms. Bordallo. Thank you. Thank you very much. Vice Admiral 
Lewis and Lieutenant General Beaudreault, given the concerns 
identified by GAO I am concerned that additional funding 
targeted toward readiness may not be prioritized toward the 
units that have the highest needs. In light of the GAO report, 
can you describe what controls have been put in place or that 
you plan to put in place in the coming year that will ensure 
readiness resources are properly allocated to the units with 
the most pressing needs? And you, General, first.
    General Beaudreault. Thank you, ma'am. I would say that, 
yes, we do have a plan and there are controls in place, and it 
gets to what Mr. Russell just referred to. And we first ensure 
that we can meet our steady-state requirement. Those next to 
deploy have to be trained and certified to go forward and 
execute their missions. 26th MEU, for instance, right now is 
the priority effort to make sure they have got everything they 
need before they depart the east coast of the United States to 
go forward into the Central Command region.
    Secondly, it is the ability to ensure of our OPLAN 
[operation plan] readiness, and that calls for units, of 
course, in number and in size greater than Marine expeditionary 
units or amphibious ready groups. So we do take a look at our 
OPLAN requirements and try to focus those units because the 
units change all the time as units deploy on their normal 
schedule, battalions change and squadrons change so we try to 
keep pace with the units that are back at home station that may 
be next to deploy. And that next to deploy focus is on those 
specifically that may have to meet an OPLAN requirement.
    Thirdly would be exercises. And with exercises comes 
experimentation. We can't afford to have sets of ships that are 
going to exercise and then we need another set to experiment. 
We have integrated experimentation in with the exercises, and I 
think Dawn Blitz is our most recent example of that where we 
wanted to test our ability to shoot High Mobility Artillery 
Rocket System off of an amphibious platform, which proved 
itself.
    So I would say that is the sequence, that is the plan. It 
is to make sure that those that are next to deploy, meeting 
OPLAN requirements, and then exercises and experimentation in 
that order.
    Ms. Bordallo. Thank you. Thank you, General. Admiral.
    Admiral Lewis. Yes, ma'am. Really to mirror what General 
Beaudreault said, but I would--the first priority for funding, 
additional funding that we need, would be go toward ship 
maintenance, so as to be able to not have to defer any further 
maintenance and to keep the maintenance time and costs and to 
get done on time so they can get out and start the training 
cycle.
    The training cycle is about a year long, 6 months in which 
we do the basic unit level training with the Navy with Marines 
embarked with their basic core competencies and then the second 
6 months is a fully integrated toward the higher end training.
    The prioritization really starts with that maintenance to 
make sure we start on time and then we can have the units that 
we have in an inventory, which is not enough, but we can have 
the units we have in the inventory to train with.
    And then the third priority would be at the higher end, the 
exercises, the larger formation exercises where the 
experimentation takes place, as well.
    Ms. Bordallo. So maintenance, training, and exercises in 
that----
    Admiral Lewis. Yes, ma'am.
    Ms. Bordallo. Thank you very much. Mr. Chairman, I yield 
back.
    Mr. Wilson. Thank you, Ranking Member. We now proceed to 
Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman. General, Admiral, it is 
not lost on me that between the two of you you have 66 years in 
service to the country. I think if Mattis and Kelly combined 
probably have over 80 years of service to the country, and as I 
listen to any of the four of you that have talked, it is pretty 
clear that the sequester and the caps have done more damage, 
just Mattis has been very direct about it, than any outside 
enemy to our military and our capabilities. And I want to 
reiterate the point that I made yesterday, and I want to say 
this as respectfully as I know how to do it. As long as you ask 
for a continuing resolution you are going to get a continuing 
resolution.
    We can put an end to this madness by the end of this year, 
but only if men like you and General Kelly and General Mattis 
hold Congress' feet to the fire. Give us Christmas Eve, give us 
Christmas Day to go home to our families. There are a lot of 
men and women deployed around the world. Make us stop this 
madness.
    But if General Mattis comes out and says we need a 
continuing resolution, I promise you, you are going to get a 
continuing resolution. And from the members of HASC [House 
Armed Services Committee] I don't pretend to speak for all of 
them, but I will tell you that I think among the Democrats and 
the Republicans on HASC we all want to help you solve this 
problem. All of us do. I believe that to be true. It is not a 
partisan issue from the members who are on HASC.
    But I just promise you if Mattis and Kelly ask for a 
continuing resolution, you are going to have a continuing 
resolution, and until you hold Congress' feet to the fire you 
are going to have to watch our capabilities further degrade. 
And so I would just ask for your help in speaking with them and 
making sure that they say no more continuing resolutions. If 
Congress has to cancel going home for Christmas, then Congress 
can cancel going home for Christmas just like the soldiers do.
    But, again, I respect both of you, all three of you, and 
thank you for your service, and I just hope that we can put an 
end to this madness by December 31st, but it is up to you. It 
is up to you all. Mattis can do it. Kelly can do it. They have 
got enough credibility up here.
    So Marine Corps logistics base in Albany we talked 
yesterday about the shortfalls in helicopters. Today we are 
talking about shortfalls in amphibious ships. General, you have 
got two Marine Corps logistics centers. The one in Albany is 
not technically in my district, but I have family that works 
there, although we don't claim each other for fear of 
termination. The maintenance on the amphibious assault 
vehicles, who does that? Is that in Albany or is that in the 
west coast depot?
    General Beaudreault. Maybe both, but I am definitely 
certain it is happening in Albany.
    Mr. Scott. Okay.
    General Beaudreault. And we greatly appreciate the work 
that is being done there to include the recovery of the tornado 
effects.
    Mr. Scott. Absolutely.
    General Beaudreault. In January of 2017 and what has been 
able to be accomplished by that workforce is nothing short of 
amazing. To include the reset of our equipment from 
Afghanistan, we are 94 percent--we had, I believe, almost 
87,000 items that were rolled back from combat that needed to 
be reworked, and we are closing in on the completion of 
resetting that equipment back in Albany, so tremendous effort 
by your family members and others in Albany, and we greatly 
appreciate the support of Congress on that.
    Mr. Scott. I was there shortly after that storm, and we 
were very fortunate that that tornado was a little bit further 
to the south, and we would have lost some lives on that base. 
They did a tremendous job of cleaning up and getting things 
back in order.
    What systemic challenges do you have at the Marine Corps 
logistics base in Albany and what changes can we make to help 
you with any of those challenges?
    General Beaudreault. Sir, I better defer that to--I can 
take that for the record if you might, and I will bring that 
back to our director for installations and logistics. That was 
squarely within his portfolio, and I can give you more accurate 
answers.
    [The information was not available at the time of 
printing.]
    Mr. Scott. Perfect. Thank you. And I look forward to seeing 
you December 23rd up here doing our job, and I hope that Mattis 
and Kelly will help get us out of this mess by the end of the 
year. Thank you. I yield.
    Mr. Wilson. Thank you very much, Congressman Scott. I will 
now proceed to Congressman Joe Courtney of Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you to the 
witnesses for being here. I would note, as Mr. Scott said, the 
NDAA [National Defense Authorization Act] is now on its way 
over to the White House, which passed with the strongest 
bipartisan vote since 2008, and part of that mark or that bill 
included the Seapower [Subcommittee] mark which increased the 
size of the amphibious fleet by one boat above what the 
President sent over. So there is some signs of intelligent 
life, you know, on the Hill here, but obviously even at that 
pace in terms of hitting the requirement of 38 ships it still 
is going to take a while, and obviously in the meantime you 
have to figure out the most creative ways possible to boost 
training.
    And, General, a number of us were over in Australia last 
summer on a CODEL [congressional delegation], and they were 
describing the joint amphibious training exercise that the 
Marines did from Darwin in 2016. I mean, is that maybe another 
sort of avenue in terms of, again, working with allies in terms 
of doing joint training exercises to again sharpen people's 
skills?
    General Beaudreault. Sir, it is. I think you might be 
referring to Tandem Thrust. That occurs on a recurring basis 
down in Australia, so, yes, very much so, not just in Australia 
to get aboard their partner ships but to get aboard ships from 
the U.K. [United Kingdom], from Spain, France, the Dutch. So 
what we refer to as an allied maritime basing initiative, 
particularly in Europe, it is not uncommon to find U.S. Marines 
aboard our allied partners' ships.
    In addition to that our use of alternative platforms, the 
ESDs [expeditionary transfer dock] and the expeditionary 
support bases like the USS Puller and soon the USS Keith 
provides that, you know, additional capability for us to get 
aboard a ship and still exercise our aviation elements and our 
command and control, so we are trying to be as creative as we 
can with not just our amphib ships, but alternative platforms 
as well as allied ships.
    Mr. Courtney. Thank you. Mr. Russell, again, your report 
kind of listed again sort of more creative ways to, you know, 
increase jointness, and if you had to prioritize I mean--of the 
recommendations--which one really that you think stands out as 
probably the most effective in the short term?
    Mr. Russell. Well, I would say it is a close call between 
two of them, but certainly the idea of trying to more 
systematically evaluate the training priorities and establish 
or look at the alternatives to the amphibious ships, whether it 
is maritime prepositioning fleet ships or allied ships, but 
coming up with a strategic, thoughtful way to look and balance 
those resources amongst priorities and alternatives is probably 
one of the top recommendations in order to manage those 
resources that are available to the best we can.
    And then it goes back also to the second recommendation 
that we made on naval integration, and that is strategically 
thinking about how you tie together both the Navy and the 
Marine Corps so that they are looking together at some of the 
joint aspects of it in terms of leveraging availabilities and 
creating those compatible systems and policies and procedures 
where the two are working together in a more cohesive way.
    Mr. Courtney. Thank you. I yield back.
    Mr. Wilson. I thank you very much, Congressman Courtney. We 
now proceed to Congresswoman Vicky Hartzler of Missouri.
    Mrs. Hartzler. Good morning, gentlemen. In your report, 
your testimony, General, you talk about how in 1990 the Navy 
possessed 62 amphibious ships, and we have 32 today and then 
how there was this, you know, mutually agreed 38-ship 
requirement. You also mentioned that Admiral Greenert in April 
of 2014 said that we need about 50 amphibious gray hulls. So 
can you give me just a little bit of background on how you 
settled for 38 and how many do you really think you need?
    General Beaudreault. Thank you, ma'am, for that question. 
The number 38 is really centered on a look that occurred in 
2009 between the Commandant of the Marine Corps and Chief of 
Naval Operations. It has held true since for the past 8 years, 
and that is our requirement to be able to have a forcible entry 
capability with two Marine expeditionary brigades.
    And so if you look at the number of 38 and then it was 
determined that 34 was based on the perceived funding levels 
for the future was about 34 ships is what would be fiscally 
affordable at that time, of which minus 10 percent in 
maintenance would leave you about 30 operationally available to 
support the lift of 2 Marine expeditionary brigades. So that is 
essentially how we got to the 38.
    We will get there in fiscal year 2033. So the risk is 
between now and fiscal year 2033 on getting that to that 
objective level. It is also the additional assumptions that was 
made on 10 percent of that fleet being in maintenance when we 
know that history indicates that we are at a higher percentage 
than 90 percent, less availability, in other words, than what 
we are finding in the ARGs, for instance today 14 of 32 ships 
are undergoing maintenance.
    Mrs. Hartzler. Well, this is very concerning. I just 
returned from South Korea and Japan and Guam with Chairman 
Wilson and Madeleine Bordallo and others and saw what our 
Marines in the past have had to come on the shore at Okinawa 
and at Guam, and as we look at what is going on in, you know, 
South Korea we need to have this capability.
    Your testimony also refers to the concerns with the 
capacity gaps with mine countermeasures, naval surface fire 
support. You say we need a modern and capable mine--counter-
mine capability facilitate access and the shortfalls. So what--
that is very concerning, as well. Can you tell me more about 
what you are doing to address these concerns?
    General Beaudreault. I can, and then I will maybe have 
Admiral Lewis add any additional, particularly on the mine 
countermeasures piece. It is a topic that was brought before 
the Naval Board, in other words, between the Commandant and the 
Chief of Naval Operations just a couple of months ago on 
getting a comprehensive review from the N-95, which is 
expeditionary warfare there within the OPNAV [Office of the 
Chief of Naval Operations] staff, on looking at the challenges 
we have and what are the proposed solutions.
    We know that we don't have sufficient capacity in that 
area, but we are looking at things that are, you know, unmanned 
capability and other technical technology improvements in that 
area. Naval surface fire support, we have addressed through the 
kind of experimentation you have seen again in Dawn Blitz of 
trying to look at extending the range of a naval gun, which is 
about 13 miles today to look at what kind of Marine Corps 
systems can we put afloat that will get us ranges out to 43 
miles or perhaps in the future out to a couple hundred miles.
    And do we take an amphibious ship like an LPD-17 class that 
may be available to put a vertical launch system configuration 
on that ship and bring a rocket system aboard that isn't there 
today at some relative cost that may not be that great with the 
existing systems we have today incorporated for shipboard use 
that will get us though ranges out to 200 and perhaps tracking 
what the Army is developing for long-range precision fires 
maybe ranges out to 400-plus miles in the future.
    So these are things we are all looking at in terms of 
filling that gap on naval surface fire support and 
technological developments on the mine countermeasures.
    Mrs. Hartzler. Let me just ask one more question. The GAO 
report talked about the virtual training option, but it also--
what is the status of your efforts to address GAO's 
recommendations to develop guidance for the development and use 
of virtual training devices and to what extent are Marine Corps 
virtual training devices able to integrate with Navy devices 
for the purposes of simulating amphibious operations?
    General Beaudreault. Within our Training and Education 
Command, they have really the portfolio for training in 
general. And that would reside with Lieutenant General Walsh, 
and I know they are looking hard at this. There is a Marine 
Corps simulated training environment concept. I think the GAO 
report is spot on in their assessment on the analysis up front 
and the evaluation on the back end, but there are some things 
that we are doing today through simulation that are definite 
enhancements that allow for our live opportunities to be more 
effective because we have been able to rehearse some of that, 
primarily command elements.
    But if you look at the comprehensive array of what is out 
there in the virtual training world, everything from a 
simulation system for a pilot to rehearse landings on a rolling 
ship at night in rough seas to the command and control 
capabilities we have at a place like Marine Corps training and 
operations group at Twentynine Palms.
    If we look at the ability of our MAGTF simulation systems 
on rehearsing a staff's ability to plan in an integrated 
fashion with the Navy prior to going to sea we do that 
routinely with the MEUs. It is called R2P2, rapid response 
planning process. So they do use some simulation in virtual 
training to go through the preliminary stages.
    In terms of systems that are designed really for amphibious 
capabilities outside of, you know, what I have referred to in 
our--we also--I will rewind the tape a little bit there and say 
we also have some systems that are applicable to operations 
ashore.
    When Marines finally hit the beach, we have a squad 
immersive trainer on both coasts that can be reconfigured to 
replicate really any kind of environment. It is really kind of 
at the squad level. So there are things that are applicable 
that we are today ashore that would have amphibious operations, 
but amphib-specific kinds of simulators, there aren't a lot 
that we have today and perhaps none in the Navy that would get 
us to where we would want to be in future. So it is a system of 
systems that you can piece together to project what you need to 
do once the landing force is ashore.
    Mrs. Hartzler. Thank you. Thank you.
    Mr. Wilson. Thank you, Congresswoman Hartzler. We now 
proceed to Congressman Trent Kelly of Mississippi.
    Mr. Kelly. Well, I broke the mike. Thank you, Mr. Chairman. 
Leave it to a redneck to break something. You know, I want to 
concur in what Austin Scott said. It is critical that we not 
hear mixed messages from the military community whether that be 
at the SECDEF [Secretary of Defense] level or from our generals 
or our admirals.
    CRs [continuing resolutions] kill our readiness. I know 
that I currently serve in our Guard, and I can tell you it 
kills our readiness. And you will never hear me say anything 
other than that. It is not okay for a CR, not a short one, not 
a long one, not any one. It is killing our readiness. So I just 
hope that that message will be heard.
    The second part is we have gotten so focused on the COIN 
[counterinsurgency] fight for the last 16 years. I see my 
soldiers, I see young majors or sometimes a little older 
majors, I see E-6s and E-7s who do not know how to fight the 
real fight that we are here for and at the end of the day the 
Marine Corps is not here to do a COIN fight. They are real good 
at that, they are real good at a lot of things, but you guys 
are here to make forced landing on a contested beachhead to get 
us a foothold to go to war with our enemies to be able to 
project power from there. It is critical that we have the 
elements to do those things, we have the training to do those 
things, and we focus on those tasks that are critical to us. I 
mean, that is why we have a Marine Corps.
    And so I guess going back [to] naval surface fires, you 
know we don't have battleships anymore. We don't have the--we 
do not have the ability to have naval surface fire support like 
we had in the past. Tomahawks and CAS [close air support] are 
great, but they don't do the same things as those big guns on 
those battleships used to do, and if you are making a forced 
landing I assure you, you don't want to go where just Tomahawks 
and CAS have been because you still got a lot of fighting to do 
to get through that.
    How would you rate--General Beaudreault, how would you rate 
the naval surface fire's readiness, and what are we doing to 
improve it?
    General Beaudreault. I will defer to Admiral Lewis on any 
improvements to the naval surface fire support platforms. My 
understanding of that which is afloat is fine. What we are, 
just as you referred to, Congressman, is a range limitation. 
The ship's survivability in a contested environment to close 
within the ranges that would be required to even get support 
from a 5-inch gun, for instance, is something we are going to 
have to rethink.
    So the coin of the realm in the future is long-range 
precision fires, and more ships protection against missile 
threats and an air threat, which looking at our potential 
adversaries and our competitors out there, what they are 
building, stealth capability and likewise is something that 
we--this technological edge we used to have is something we are 
very aware of, something we are very concerned about, and 
something we need to counter.
    So survivabilities of the amphibious platforms to get in 
close is a big concern. We need to make them more lethal. We 
need to make them more survivable. And the lethality goes to 
the naval surface fire support piece, and the survivability 
gets to the missile defense piece.
    Mr. Kelly. Admiral, if you can talk about that, please?
    Admiral Lewis. Yes, sir. The contested environment that you 
referred to years ago was in close to the beachhead. It is now 
everywhere. If you look throughout the maritime, all straits, 
Strait of Hormuz, Malacca Straits, wherever and further out 
into the maritime, so it is all the battlespace now. A 
priority, a very high priority for the Navy is development of 
long-range precision surface-to-surface fires that is very 
much--and it is not just in this fight, it is in what we would 
call, you know, traditionally a blue-water fight, which has 
been very much--you know, it has been very blurred in that 
regard from the contested space.
    Where we are right now in surface fires is just over 10 
nautical miles, and that is not far enough. Part of that, 
though, is the systems and the command and control systems and 
the ability to network our capabilities from Navy ships at sea 
well out to sea to in close to onshore.
    That networking is something that we are very focused on 
with Navy and Marine Corps first and with the Air Force and 
with the Army as we go forward. But that is something that it 
is a real need. We are not close to achieving it. We have got 
to get to the building blocks first, which is the basic units 
and the capability of the ARG and MEU.
    Mr. Kelly. I thank both of you for your answer. I think 
that is something we need to really focus on and focus on 
quick. The bottom line there is a lot of difference going into 
a beachhead or a hardened target that has been saturated with 
heavy fires than to go in somewhere that has kind of been just 
kind of hit a little bit. There is a lot of fighting left and 
we don't want to use Marines when we can do that with 
firepower, and with that my time is expired.
    Mr. Wilson. Thank you very much, Colonel, Congressman 
Kelly. We now proceed to Congressman Mike Gallagher of 
Wisconsin.
    Mr. Gallagher. Thank you, Mr. Chairman. I don't have a cool 
southern accent, but I would like to associate myself with the 
remarks of Mr. Kelly and Mr. Scott. I really think that now is 
the critical time to get out from under this problem from a 
budgetary perspective. I don't think we can afford another CR, 
and so I think we have to make a stand over the next month. And 
I know it might seem absurd from your perspective for us to put 
the onus on you, given that we are a separate branch of 
government which provides you with funding, and it is our job, 
but we really need your help. Because you guys bring a 
credibility that Congress does not.
    Congress is rocking a 12 percent approval rating right now. 
I think you guys have a 90 percent approval rating. So we are 
going to need your partnership over the next month. By the way, 
that approval rating is lower than cockroaches and 
colonoscopies to give you a sense of how bad the problem is 
right now. Because, and I hate to be critical since I have only 
been here a year, but when it comes to this issue, which should 
be the most important issue for all of us it just--it perplexes 
me as to why a year into this Congress we are still in this 
situation when we know how much damage the BCA [Budget Control 
Act] and sequester has done to our military and how much damage 
another continuing resolution would do as the Secretary laid 
out in the letter to Chairman McCain and some others a month 
ago. So I would just second the sentiments of Colonel Kelly and 
Austin Scott.
    This next month I view to be as absolutely critical, and I 
am not going to support any effort that continues to punt this 
problem down the road any further.
    It is just, I can't look my buddies who are still on Active 
Duty in the eye, given that I am unexpectedly in this role, and 
do that. So if we have to cancel Christmas, it is fine with me. 
I am happy to stay here, and they should lock us on the House 
floor until we get this done.
    So thank you for being here and shedding light on these 
issues, and I just would ask sort of a follow-up of what 
Congresswoman Hartzler suggested.
    So we know we have gone from 61 amphibs down to 32, and the 
requirement is 38. Is that correct? Do I have that right? So 
can you just give me a sense, and forgive me if I missed this, 
how that impacts our OPLANs, particularly in the Pacific, and 
whether that should require us to rethink these OPLANs or 
rethink whether they are even realistic to begin with?
    General Beaudreault. Congressman, just on the evaluation of 
our ability to execute any of the op plans if you would permit 
I will take that question because I think it would--I don't 
want to breach or wander into any of the classified territory. 
So I think I can provide you the best most comprehensive answer 
in that classified forum.
    Mr. Gallagher. Sure.
    Admiral Lewis. I echo that, but what I would mirror, and at 
the unclassified level, if there is a conflict in the Pacific 
that we are faced with right now and the scenario we are faced 
with right now, it is not going to be like what we have been 
faced with over the last 15 years. And that is a large-scale 
conflict with a considerable risk to a lot of American lives.
    And that is why--and our capacity in amphibious ships and 
Marines and soldiers, airmen, sailors, Coast Guardsmen is not 
where it needs to be. We are going to go to the fight and we 
are going to win, but that is a real serious thing right now.
    And the fact of passing a budget and not having a 
continuing resolution will get us one step closer to being 
prepared, but passing a continuing resolution will, as I said 
in my opening remarks, and you mirrored much better than I 
have, it has just stemmed the readiness issues. It hasn't 
reversed them. And we are in a real need of reversing those 
readiness issues.
    Mr. Gallagher. Yes.
    Admiral Lewis. And that was the only thing I would say on 
top of that.
    Mr. Gallagher. Well, usually I criticize people that use 
their 5 minutes to give speeches and not ask questions, but I 
am violating that today. I just want to go back to this point. 
You know this is our--this is the centennial of our entry into 
World War I, so I have been doing a kind of nerdy deep dive 
into Wisconsin's history, and we led the opposition to the war.
    Bob La Follette, our most famous politician, was the leader 
of the progressive Republicans and fought on the Senate chamber 
to delay Army merchant vessels and all this, but 
notwithstanding that crazy debate that we had that really 
divided the country--we had a lot of German-Americans in 
Wisconsin--we managed to come together afterwards and do the 
right thing for the country, and the entire country mobilized 
in support of our troops.
    That is not to say it wasn't without problems and we 
experienced a lot of the interesting and divisive issues on the 
homefront, but I just feel like this is the time where we got 
to come together, and I think we can. I think we can. Working 
with you guys, we can do it. Now is the decisive moment, and I 
believe what we do over the next month can really put us on the 
right path for the next decade or if not longer. So thank you 
guys for being here and taking the time to shed some light on 
these critical issues.
    General Beaudreault. Congressman, I would like to follow up 
for just one quick note on that and that probably the greatest 
degradation we faced under the CR is our inability to do the 
new starts. And we talk about building ships if we can't have 
new starts. Our adversaries and potential adversaries are 
cranking out new ships once every 6 weeks.
    So we find this again our maritime superiority edge 
narrowing through the continuing resolutions that is not 
allowing us to stay on glide path for readiness recovery and 
maintain a superiority on the sea, to be honest with you.
    Mr. Gallagher. My time is expired, but I yield.
    Mr. Wilson. Thank you very much, Congressman Gallagher. And 
as we conclude it is obvious to you that we really are facing 
the continuing resolution right now. You are, too.
    And I appreciate Congressman Scott so eloquently presenting 
it and backed up, of course, by Congressman Kelly, and 
Congressman Gallagher, and Congresswoman Hartzler, and then 
this may be lightning is going to strike, bipartisan with 
Congresswoman Bordallo, and Congressman Courtney, but it really 
would be helpful to us to have very brief, as I indicated 
yesterday and I will restate, to have examples of increased 
costs, to delays to the costs, and then you actually brought up 
new items that need to be in this very brief one-page letter, 
and that would be the new starts.
    And then there could be a paragraph as to the capabilities 
of adversaries that have a 6-week capability. That is just 
incredible, but we need to have facts and actually Congressman 
Gallagher was extremely correct.
    I was going to point out that we need facts that would be 
merit-based, but actually you have credibility and that would 
help us as we explain to our colleagues the phenomenal 
challenges to our country and the risk to our country and then 
we can also, once we take some hard votes we are going to have 
to go home and explain this to our constituents, and it can 
best be done if we are presenting specific facts that you can 
provide. Again, we want to thank you for your service.
    It is just inspiring to me with such extraordinary 
individuals, and we appreciate your service each of you, and, 
Congresswoman Bordallo, of course, we need to represent--we 
need to present the wonderful territory of Guam.
    Ms. Bordallo. Thank you, Mr. Chairman. I just want to go on 
record to say that I certainly support eliminating the CR.
    Mr. Wilson. And again just bipartisan and to address the 
issue of sequestration we keep punting, but we want to back you 
up for the defense of our country. And with this we shall be 
adjourned.
    [Whereupon, at 9:00 a.m., the subcommittee was adjourned.]

      
=======================================================================

                            A P P E N D I X

                            December 1, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 1, 2017

=======================================================================

           
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
